September 8, 2020
Scott Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
Re:

Rigoberto Avila, Jr., v. State of Texas, No. 20-5342

Dear Mr. Harris,
A response in this death penalty case is due September 14, 2020. Respondent
respectfully requests a thirty-day extension of the present deadline, up to and
including October 14, 2020. This is Respondent’s first request for an extension in this
case. The extension request is not sought for an improper purpose, including
harassment or unnecessary delay. Rather counsel for the Respondent require
additional time for researching the claims and briefing the State’s opposition. The
Respondent’s counsel has conferred with Petitioner’s counsel, Jeremy Schepers, who
stated that he was not opposed to this requested extension. A copy of this letter will
be sent to Mr. Schepers. Thank you for your consideration.
Respectfully submitted,

Stephen M. Hoffman
Assistant Attorney General
CC:

Jeremy Schepers
Office of the Federal Public Defender
Northern District of Texas
525 S. Griffin St., Ste. 629
Dallas, TX 75202
jeremy_schepers@fd.org

P o s t O f f i c e B o x 1 2 5 4 8 , A u s ti n , Tex as 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www.t exas atto r n e yg e n e r a l .g o v

